No.
IN THE SUPREME COURT OF THE UNITED STATES

ALAN SINGER, Applicant/Petitioner
V.

MONDEX CORPORATION, Respondent

APPLICATION FOR EXTENSION OF TIME
TO FILE PETITION FOR WRIT OF CERTIORARI
TO THE ARIZONA SUPREME COURT

TO THE HONORABLE ELENA KAGAN, ASSOCIATE JUSTICE
OF THE SUPREME COURT OF THE UNITED STATES

1.

Pursuant to this Court's Rules 13.5 and 30.2, applicant-petitioner

Alan Singer respectfully requests a sixty (60) day extension, to and including
Monday, May 4, 2020, to file his petition for writ of certiorari in this Court.
The judgment for which review is sought is Alan Singer v. Mondex Corporation,
CV-19-0159-PR.
2,

On December 5, 2019, the Arizona Supreme Court entered an order denying

applicant-petitioner Alan Singer's Petition for Review, and further ordered the
granting of respondent Mondex Corporation's request for attorney's fees, although
that court had refused to assume jurisdiction. The above-referenced order is
attached as Exhibit 1.

1

RECEIVED
JAN 3 1 2020
OFFICE OF THE CLERIC
SUPRsmE CO'

The date within which a petition for writ of certiorari would be due, if not
extended, is Wednesday, March 4, 2020. This application is being filed more than
ten (10) days before this date, pursuant to Rule 30.2. The jurisdiction of this Court
is to be invoked under 28 USC § 1257(a).
GROUNDS FOR CERTIORARI EXIST
This case presents substantial legal issues dealing with matters of
international importance, which will likely become more common in investor-statedispute-settlement litigation after the ratification by Canada of the United StatesMexico-Canada Treaty ("USMCA"). Specifically, the question arises whether a
Canadian party's choice of law may result in an implied partial waiver of personal
jurisdiction, when sued in the United States.
The question arises (1) whether a choice of law, freely bargained
for, is enforceable against the party, that drafted the contract; and (2) if it is,
whether the provision can be construed to partially waive personal jurisdiction and
the provisions of the minimum contacts test set forth in International Shoe v.
Washington (1945) 326 U.S. 310.
Since 2012, Canadian law has employed the less stringent "real and
substantial connection" in the assumption of civil jurisdiction by Canadian courts.
See Club Resorts v. Van Breda, 2012 SCC 17.
Applicant-petitioner Alan Singer, an Arizona resident, appealed the
dismissal of his action against Mondex Corporation, a company headquartered in
Ontario, Canada for lack of personal jurisdiction. Mondex argued that it had
2

insufficient contacts with Arizona for that state to exercise personal jurisdiction
over it.
Respondent Mondex did not ask for attorney's fees at the superior court, and
it failed to file a cross-appeal. For the first time, on appeal to the Arizona Court of
Appeals, Mondex demanded attorney's fees, claiming that the action was brought
without substantial justification. However, the Court of Appeals refused to grant
Mondex any attorney's fees, concluding there existed substantial justification for
the action.
Applicant-petitioner filed a Motion for Reconsideration asking the Court of
Appeals to rule on respondent Mondex's argument that the choice of law in a
contract, which it created, can be followed and that the choice of law, included
therein, made Arizona a proper situs for the lawsuit. A copy of the contract is
attached as Exhibit 2.
Applicant-petitioner appealed to the Arizona Supreme Court which refused
jurisdiction over the case, but nevertheless sua sponte granted attorney's fees
"based upon contract" — even though the contract expressly denies attorney's fees
for any party.
Since Arizona Supreme Court Rules do not provide for a rehearing or en banc
review, applicant-petitioner had no opportunity to object to, or challenge that
court's decision to grant attorney's fees. This is clearly a denial of his due process
rights.

3

Applicant-petitioner argued that there existed sufficient contacts created by
Mondex for the superior court to exercise jurisdiction over it, because the tortious
actions of the company were expressly aimed at him — and respondent Mondex
knew that.
THE NEED FOR AN EXTENSION OF TIME
There is an anticipated ruling on a related case, Alan Singer v. James
Palmer a.k.a. Jonathan James Palmer and Mondex Corporation, CV-19-0296-PR,
which was partially reversed and remanded at the Court of Appeals, but remains
pending at the Arizona Supreme Court. The aforementioned pending matter may
significantly impact the present case.
The recently enacted USMCA is already influencing contract formation
between American and Canadian entities.
The requested extension, if granted, will afford applicant-petitioner sufficient
opportunity to submit a more detailed and cogent petition for writ of certiorari that
is consistent with the standard and accuracy expected by the United States
Supreme Court, while addressing substantial and important issues of law.
Applicant-petitioner did communicate with respondent's counsel concerning
this extension request. Counsel for respondent advised he "does not have any
objection" to a request for extension of time to file a writ of certiorari with the U.S.
Supreme Court.
This requested extension of time to file will not prejudice either party to this
action.
4

CONCLUSION
For the foregoing reasons, applicant-petitioner hereby requests that an
extension of time to, and including Monday, May 4, 2020, be granted within which
he may file a petition for writ of certiorari.
Respectfully submitted on this 2,1-4
— day of January, 2020.

a/e-

By:
Alan Singer/Applicant-Petitioner/In Pro Se
4825 Highway 95, Suite 2-120
Fort Mohave, Arizona 86426
(928) 377-4508
E-mail: alansinger7@gmail.com

5

